Department of Health and Human Services
             OFFICE OF
        INSPECTOR GENERAL




    OVERSIGHT OF PRIVATE
     HEALTH INSURANCE
     SUBMISSIONS TO THE
      HEALTHCARE.GOV
        PLAN FINDER




                    Daniel R. Levinson
                     Inspector General

                       April 2013
                     OEI-03-11-00560
EXECUTIVE SUMMARY: OVERSIGHT OF PRIVATE HEALTH INSURANCE
SUBMISSIONS TO THE HEALTHCARE.GOV PLAN FINDER
OEI-03-11-00560

WHY WE DID THIS STUDY

The HealthCare.gov Plan Finder is the first comprehensive, online portal that assists consumers in
comparing their health insurance coverage options. All private health insurers in the individual and
small group markets are required to submit information to populate the Plan Finder. The data
collection conducted by the Centers for Medicare & Medicaid Services (CMS) to populate the Plan
Finder represents the first national attempt to identify these insurers and the products and plans they
offer. To realize the benefits of expanded consumer information, the data displayed on the Plan Finder
must be complete and accurate.

HOW WE DID THIS STUDY

We reviewed CMS’s policies and procedures, survey responses, and interview responses regarding
oversight of insurers’ data submissions. We selected a purposive sample of 98 small group products
and 94 individual plans displayed on the Plan Finder for its November 2011 and January 2012 updates,
respectively. For each sampled product and plan, we identified aberrant or inconsistent data displayed
on the Plan Finder and determined whether displayed data were consistent with information provided
by insurers’ telephone customer service representatives.

WHAT WE FOUND

Most private insurers reported data to the Plan Finder. However, gaps exist in CMS’s oversight of
private insurers’ compliance with Plan Finder reporting requirements. CMS did not conduct targeted
followup with insurers that did not report detailed pricing and benefit information. CMS also has not
been able to identify the entire population of insurers required to report basic company and product
information. In addition, CMS has not asked insurers to certify to the completeness of submitted data
in accordance with Federal regulation. CMS implemented numerous strategies to monitor data
accuracy. However, the data displayed on the Plan Finder for the sample of products and plans
contained some inconsistencies that may confuse consumers. The products and plans displayed were
not always available for sale or were not always recognized by insurers’ representatives. When
products and plans were available and were recognized, 81 percent of their data displayed on the Plan
Finder matched the information provided by insurers’ representatives.

WHAT WE RECOMMEND

Our findings indicate that additional efforts are needed to oversee private insurers’ compliance with
reporting requirements for the HealthCare.gov Plan Finder and to ensure that the data displayed on the
Plan Finder are accurate. Therefore, we recommend that CMS: (1) establish and implement
procedures to identify and pursue private insurers that do not submit required data to the Plan Finder,
(2) ensure that each private insurer’s Chief Executive Officer or Chief Financial Officer certifies to the
completeness of data submitted to the Plan Finder, (3) design and implement additional strategies to
ensure Plan Finder data accuracy, and (4) validate that products and plans submitted to the Plan Finder
are available for sale. CMS generally concurred with our recommendations and is taking steps to
address them.
TABLE OF CONTENTS

Objectives ....................................................................................................1
Background ..................................................................................................1
Methodology ................................................................................................4
Findings........................................................................................................8
           Gaps exist in CMS’s oversight of private insurers’ reporting of
           required data to the HealthCare.gov Plan Finder .............................8
           Although CMS implemented numerous measures to oversee
           data accuracy, the data displayed on the Plan Finder contained
           some inconsistencies ......................................................................10
           Not all of the products and plans displayed on the Plan Finder
           were available for sale or were recognized by insurers’
           representatives................................................................................14
           Eighty-one percent of product and plan data displayed on the
           Plan Finder matched information provided by insurers’
           representatives................................................................................14
Conclusion and Recommendations ............................................................17
           Agency Comments and Office of Inspector General Response.....20
Appendixes ................................................................................................21
           A: Plan Finder Data Fields Included in Office of Inspector
           General Review of Information Provided by Insurers’
           Representatives ..............................................................................21
           B: Agency Comments ...................................................................22
Acknowledgments......................................................................................25
                   OBJECTIVES
                   1. To determine the extent to which the Centers for Medicare & Medicaid
                      Services (CMS) oversees private health insurers’ compliance with
                      reporting requirements for the HealthCare.gov Plan Finder.
                   2. To determine whether selected data displayed on the HealthCare.gov
                      Plan Finder are consistent with other consumer information provided
                      by private insurers.

                   BACKGROUND
                   The health care reforms enacted in 2010 seek to increase informed
                   consumer choice by improving Americans’ access to information about
                   available health insurance options. 1 Section 1103 of the Affordable Care
                   Act (ACA) requires the Secretary of Health and Human Services to
                   establish a health insurance Web site portal that presents health insurance
                   information in a standardized format and enables comparison of coverage
                   options. 2, 3 Information on coverage options must include private health
                   insurance information, as well as government-administered health
                   insurance information, such as Medicaid, the Children’s Health Insurance
                   Program, State high risk pools, and the Pre-Existing Condition Insurance
                   Plan. Data collection and maintenance of the Web site portal, the
                   HealthCare.gov Plan Finder, is managed by the Center for Consumer
                   Information and Insurance Oversight (CCIIO) within CMS.4
                   The Plan Finder is the first comprehensive, centralized, online portal that
                   assists American consumers in comparing insurance coverage options. In
                   addition, the Plan Finder has the potential to increase the sale of private
                   health plans to uninsured individuals and promote market competition to
                   improve health coverage choices for all Americans. 5 Realizing the benefits
                   of expanded consumer information is contingent upon the completeness

                   1
                     75 Fed. Reg. 24471 (May 5, 2010).
                   2
                     The Patient Protection and Affordable Care Act (P.L. 111-148) and the Health Care and
                   Education Reconciliation Act (P.L. 111-152) are collectively referred to as the Affordable Care
                   Act.
                   3
                     As specified in 45 CFR § 159.110, health insurance coverage is defined according to
                   section 2791(b)(1) of the Public Health Service Act as “benefits consisting of medical care
                   (provided directly, through insurance or reimbursement, or otherwise and including items and
                   services paid for as medical care) under any hospital or medical service policy or certificate,
                   hospital or medical service plan contract, or health maintenance organization contract offered
                   by a health insurance issuer.”
                   4
                     HealthCare.gov is a Federal Web site that contains information about public and private
                   health insurance options across the Nation, connects consumers to quality rankings for health
                   care providers, and explains the provisions and key features of the ACA.
                   5
                     75 Fed. Reg. 24481 (May 5, 2010).

Oversight of Private Health Insurance Submissions to the HealthCare.gov Plan Finder (OEI-03-11-00560)          1
                   and accuracy of the private sector health insurance data populating the Plan
                   Finder. Section 1311 of the ACA requires the Secretary to continue to
                   operate, maintain, and update the Plan Finder.
                   Although the Plan Finder is not a transactional Web site from which
                   consumers can purchase private insurance, its formats and tools for
                   displaying insurance information can inform State and Federal decisions in
                   the development of Affordable Insurance Exchanges. 6, 7 The Exchanges
                   will serve as competitive marketplaces for consumers to compare and
                   purchase health insurance. 8 According to HHS, open enrollment in the
                   Exchanges will begin on October 1, 2013. The Congressional Budget
                   Office (CBO) estimates that by 2016, 24 million Americans will receive
                   health coverage through the Exchanges. 9
                   The HealthCare.gov Plan Finder
                   Today, consumers seeking information about private health insurance
                   options are using the Plan Finder as an education tool to find and compare
                   health plans. The Plan Finder was publicly launched on July 1, 2010, and
                   had approximately 2 million visitors from July 2010 to July 2011. As of
                   March 2013, it housed information on more than 8,000 private health
                   insurance products offered within the small group market and the
                   individual market. The individual market sells health insurance to
                   individuals and families seeking coverage, and the small group market sells
                   health insurance to small businesses seeking coverage for their
                   employees. 10
                   Private insurers were first required to submit data to the Plan Finder in May
                   2010. 11 Since that time, CMS has collected updated information from
                   private insurers multiple times throughout each year. From July to
                   September 2010, the Plan Finder displayed an initial set of basic
                   information on private health insurance companies and their products. For


                   6
                     Ibid.
                   7
                     Each State will have an Exchange that is operated by the State, by the State in
                   partnership with the Federal Government, or by the Federal Government.
                   8
                     ACA § 1321(c) and 77 Fed. Reg. 18310 (March 27, 2012).
                   9
                     CBO, Estimate of the Effects of the Affordable Care Act on Health Insurance Coverage,
                   February 2013. Accessed at http://www.cbo.gov on March 21, 2013.
                   10
                      45 CFR § 159.110 adopts the definitions of the terms “individual market” and “small
                   group market” found in ACA section 1304(a)(2) and ACA section 1304(a)(3),
                   respectively. The term “individual market” is defined as the market for health insurance
                   coverage offered to individuals other than in connection with a group health plan. The
                   term “small group market” is defined as the market under which individuals obtain health
                   insurance coverage (directly or through an arrangement) on behalf of themselves (and
                   their dependents) through a group health plan maintained by a small employer.
                   11
                      45 CFR § 159.120(a). The regulation text includes the term “health insurance issuers.”
                   In this report, we use the term “insurers,” rather than “issuers.”

Oversight of Private Health Insurance Submissions to the HealthCare.gov Plan Finder (OEI-03-11-00560)     2
                   purposes of the Plan Finder, products are defined as packages of benefits
                   that a private insurer offers that have been reported to State regulators in an
                   insurance filing. 12,13 Each health insurance product may have multiple plan
                   options. Plans may differ in their premiums, cost-sharing options, types of
                   services covered, coverage limitations, and exclusions. The Plan Finder
                   began displaying detailed pricing and benefit information for the individual
                   market in October 2010 and for the small group market in November 2011.
                   For Plan Finder data collection, storage, and maintenance, CMS contracts
                   with an information technology and business process services firm.
                   According to CMS, the estimated cost of development, operation, and
                   management of the data systems that support the Plan Finder and other
                   HealthCare.gov functions was $17.2 million for fiscal year 2012. 14
                   Federal Requirements for Reporting Private Insurance Data
                   Data Submission Requirements. To populate the Plan Finder, all private
                   insurers must submit data that provide consumers with information on
                   health insurance coverage options. 15 The data submission requirements
                   apply to health insurance sold in both the individual and small group
                   markets in each of the 50 States and the District of Columbia. Private
                   insurers must submit:
                   •    Basic health insurance company and product information, including
                        enrollment data, geographic availability, and Web site links to provider
                        networks. Insurers submit these data electronically to CMS using the
                        Health Insurance Oversight System.
                   •    Detailed pricing and benefit information on premiums, cost-sharing,
                        types of services covered, coverage limitations, and exclusions for each
                        health insurance plan. Insurers submit these data electronically to CMS
                        using the Rate and Benefits Information System.
                   Insurers must report basic health insurance information prior to reporting
                   detailed pricing and benefit information about their products and plans.
                   For the individual market, the Plan Finder displays detailed pricing and
                   benefit information by health insurance plan. According to CMS, small
                   group market insurers do not generally sell or track pricing and benefit

                   12
                      45 CFR § 159.110.
                   13
                      States are primarily responsible for oversight of the private health insurance industry.
                   State regulators ensure that products comply with State law and do not contain major gaps
                   in coverage that might be misunderstood by consumers. CMS does not have the authority
                   to actively solicit State involvement to ensure that products submitted to Plan Finder have
                   been reported to State regulators.
                   14
                      These data systems are used to support other CMS efforts related to ACA
                   implementation in addition to the HealthCare.gov Plan Finder. The Plan Finder is one of
                   several components of the HealthCare.gov Web site.
                   15
                      45 CFR § 159.120.

Oversight of Private Health Insurance Submissions to the HealthCare.gov Plan Finder (OEI-03-11-00560)      3
                   information by plan. Therefore, in an effort to reduce insurers’ data
                   collection burden, CMS collects and displays detailed pricing and benefit
                   information for the small group market by health insurance product. For a
                   product with multiple plan options, the Plan Finder displays the range of
                   deductible, out-of-pocket limit, copayment, and co-insurance options
                   offered for the plans associated with that small group product.
                   In addition to current data submission requirements, future releases of the
                   Plan Finder will include performance rating indicators for products and
                   plans, such as the percentage of policies rescinded, the percentage of
                   claims denied, and the number and disposition of appeals. 16 Private
                   insurers are not yet required to submit performance rating indicators.
                   Data Validation Requirements. Insurers must verify the data submitted to
                   the Plan Finder and make corrections to any errors that are found. 17 In
                   addition, regulations require that each insurer’s Chief Executive Officer
                   (CEO) or Chief Financial Officer (CFO) electronically certify to the
                   completeness and accuracy of all data submitted. 18
                   Related Studies
                   In 2009, an OIG study identified inaccurate drug prices displayed on the
                   Web-based Medicare Part D plan comparison tool that Medicare
                   beneficiaries use to find, compare, and select Part D prescription drug
                   plans. 19 In response, CMS modified information that appears to consumers
                   regarding the accuracy of the Part D drug cost estimates provided on the
                   Web-based tool.

                   METHODOLOGY
                   Scope
                   We examined CMS’s oversight of private health insurers’ compliance with
                   Plan Finder reporting requirements and determined whether selected data
                   displayed on the Plan Finder were consistent with other consumer
                   information provided by private insurers. We limited our review to health
                   insurance data reported by private insurers to the Plan Finder—specifically,
                   small group market data that were on display from November 15, 2011, to
                   March 1, 2012, and individual market data that were on display from
                   January 19, 2012, to April 12, 2012. CMS identifies an “insurer” as a
                   private health insurance company operating within a State. For purposes of


                   16
                      45 CFR § 159.120(f).
                   17
                      45 CFR § 159.120(e).
                   18
                      45 CFR § 159.120(g).
                   19
                      OIG, Accuracy of Part D Plans’ Drug Prices on the Medicare Prescription Drug Plan
                   Finder, OEI-03-07-00600, July 2009.

Oversight of Private Health Insurance Submissions to the HealthCare.gov Plan Finder (OEI-03-11-00560)   4
                   our review, if a single company operates in 5 States in both the small group
                   and individual markets, we considered it as 10 insurers.
                   Data Collection
                   Documentation, Survey, and Interview Data. We obtained current written
                   policies and procedures that CMS uses to oversee private insurers’
                   compliance with Plan Finder reporting requirements. CMS completed two
                   self-administered surveys and responded to in-person interview questions
                   regarding private insurers’ data submissions and CMS’s oversight activities
                   for the individual and small group markets.
                   Source Data Populating the Plan Finder Display. We obtained from CMS
                   the source data populating the Plan Finder display for the individual and
                   small group markets. The source data included detailed health insurance
                   pricing and benefit information submitted by 545 small group market
                   insurers and 310 individual market insurers, for a total of 855 submissions.
                   CMS indicated that it expected 1,026 insurers to submit detailed health
                   insurance information for the Plan Finder update periods in our review.
                   Only 897 insurers actually submitted this detailed information. However,
                   CMS displayed information on the Plan Finder for 855 of these insurers
                   because some insurers’ data submissions did not pass CMS’s validation
                   process. 20
                   Data Displayed on the Plan Finder. From the Plan Finder, we collected
                   information for selected data fields for 94 individual plans and 98 small
                   group products. Where possible, this purposive sample included products
                   and plans offered by two insurers for each State and the District of
                   Columbia in both the individual and small group markets. 21, 22 We designed
                   our sample to include a greater proportion of insurers with higher levels of
                   health insurance market share within each State. Of the 192 products and




                   20
                      For the November 2011 update of the small group market data displayed on the Plan
                   Finder, CMS provided a source data file on December 12, 2011. For the January 2012
                   update of the individual market data displayed on the Plan Finder, CMS provided a source
                   data file on February 9, 2012.
                   21
                      During the review period, the Plan Finder did not display information for any individual
                   market insurers in Rhode Island and displayed information for only one individual market
                   insurer in Alabama, Idaho, Minnesota, Montana, New Hampshire, and Vermont,
                   respectively. Therefore, 94 individual market plans were included in our sample.
                   22
                      We initially selected a sample of 102 small group market products. However, for
                   four sampled products, we could not reach a representative during our data collection
                   period who was willing and able to answer our questions. Therefore, our sample included
                   98 small group market products.

Oversight of Private Health Insurance Submissions to the HealthCare.gov Plan Finder (OEI-03-11-00560)      5
                   plans in our sample, 122 were offered by insurers with more than 5 percent
                   of their States’ market shares. 23
                   Information Provided by Insurers’ Representatives. For each sampled
                   product and plan, we called the insurer’s customer service telephone
                   number and asked to speak with a representative who could answer specific
                   questions about products or plans. If transferred by an operator, we
                   considered the person to whom we were transferred to be a “customer
                   service representative.” We collected information from these
                   representatives regarding individual plan and small group product data
                   fields displayed on the Plan Finder. Appendix A provides a list of the Plan
                   Finder data fields selected for review.
                   Analysis
                   We reviewed and summarized CMS’s policy and procedure documentation,
                   survey responses, and in-person interview responses regarding private
                   insurers’ Plan Finder data submissions and CMS’s oversight activities.
                   For each product and plan in our sample, we calculated rates of consistency
                   between the data displayed on the Plan Finder and the information
                   provided by insurers’ representatives by dividing the number of matching
                   data fields by the total number of data fields included in our review. After
                   calculating a consistency rate for each product and plan, we calculated the
                   average consistency rate across all products and plans.
                   For each data field under review, we calculated the percentage of products
                   and plans for which the data values displayed on the Plan Finder matched
                   the information provided by insurers’ representatives. In some cases,
                   insurers’ representatives did not know the answer to or did not answer one
                   or more of the questions asked about sampled products and plans. We did
                   not include missing data values in the denominator when calculating the
                   consistency rate for a product or plan or the consistency rate for a data
                   field.
                   In addition, we determined whether there were aberrant or inconsistent data
                   values in selected data fields displayed on the Plan Finder for each product
                   and plan in our sample using two different analyses:
                   •    We compared the data displayed on the Plan Finder to the data
                        submitted by insurers to identify any discrepancies.



                   23
                     In measurement of health insurance market competition, 5 percent is considered a threshold
                   signaling that an insurer controls sufficient market share to form provider networks and
                   achieve brand awareness for growth in the future. Kaiser Family Foundation, How
                   Competitive are State Insurance Markets?, October 2011. Accessed at
                   http://www.kff.org/healthreform/upload/8242.pdf on September 5, 2012.

Oversight of Private Health Insurance Submissions to the HealthCare.gov Plan Finder (OEI-03-11-00560)        6
                   •    We compared the data displayed on the Plan Finder across products and
                        plans to check for extremely high or low values in specific data fields.
                        We also reviewed the Plan Finder display for each product and plan in
                        our sample to identify logical inconsistencies between the values of
                        related data fields. For example, if a plan’s data fields for drug
                        coverage indicated that the plan did not cover drugs, but a drug
                        formulary list was included on the plan’s display, we would consider
                        this to be an inconsistency between values of related data fields.
                   Limitations
                   Although we used randomization where possible to minimize bias in our
                   selection of product and plans, our purposive sample of 192 products and
                   plans is not representative of all products and plans on the Plan Finder
                   display. We also did not validate the information provided by insurers’
                   customer service representatives. Finally, to minimize respondent burden
                   for insurers’ telephone representatives, we did not include all data fields for
                   individual plans and small group products displayed on the Plan Finder in
                   our review.
                   Standards
                   This study was conducted in accordance with the Quality Standards for
                   Inspection and Evaluation issued by the Council of the Inspectors General
                   on Integrity and Efficiency.




Oversight of Private Health Insurance Submissions to the HealthCare.gov Plan Finder (OEI-03-11-00560)   7
                     FINDINGS
                     Gaps exist in CMS’s oversight of private insurers’
                     reporting of required data to the HealthCare.gov Plan
                     Finder
                     Thirteen percent of private health insurers that CMS expected to report data
                     did not submit pricing and benefit data to the HealthCare.gov Plan Finder
                     in November 2011 and January 2012. CMS did not conduct targeted
                     followup with these insurers. In addition, CMS has not required insurers to
                     meet the stipulation in the Federal regulation that insurers’ CEOs or CFOs
                     certify to the completeness of all submitted data. With respect to oversight
                     of insurers’ compliance with reporting basic company and product
                     information to the Department of Health and Human Services (HHS), CMS
                     has not been able to identify the entire population of private insurers
                     required to report. 24

                     Thirteen percent of private insurers did not submit pricing and
                     benefit data to the Plan Finder
                     Of the 1,026 insurers that CMS expected would report specific pricing and
                     benefit information for the individual and small group markets, 129, or
                     13 percent, did not submit these data. These 1,026 insurers had submitted
                     basic health insurance information to the Plan Finder in the past and,
                     therefore, were expected to submit detailed pricing and benefit information.
                     Without submitting pricing and benefit data, an insurer cannot be displayed
                     on the Plan Finder. Therefore, during our review periods, there were
                     129 private insurers with potential health insurance offerings that were not
                     on the Plan Finder. As shown in Table 1, the percentage of insurers that did
                     not submit these detailed data was greater among insurers from the
                     individual market (21 percent) than that from the small group market
                     (7 percent).

      Table 1: Private Insurers’ Compliance With Requirement To Report Specific Pricing
      and Benefit Information to the HealthCare.gov Plan Finder
                                            Number of Insurers               Number of Insurers     Percentage of Insurers
       Health Insurance
                                            Expected To Report               That Did Not Report        That Did Not Report
       Market
                                       Pricing and Benefit Data         Pricing and Benefit Data   Pricing and Benefit Data
       Individual Market,
                                                                395                          84                       21%
       January 2012 Update
       Small Group Market,
                                                                631                          45                         7%
       November 2011 Update
          Totals                                              1,026                         129                       13%
      Source: Office of Inspector General (OIG) survey of CMS/CCIIO staff, 2012.




                     24
                          45 CFR §§ 159.100, 159.110, and 159.120.

Oversight of Private Health Insurance Submissions to the HealthCare.gov Plan Finder (OEI-03-11-00560)                   8
                   CMS did not conduct targeted followup with private insurers
                   that did not submit pricing and benefit information to the Plan
                   Finder
                   CMS did not conduct targeted followup with 128 of the 129 private health
                   insurers that did not report pricing and benefit information for their
                   products and plans. For the small group market, CMS contacted one
                   insurer for failing to submit pricing and benefit information. This insurer
                   indicated that the employee responsible for reporting data to the Plan
                   Finder had been replaced, which led to confusion among staff about
                   data-reporting responsibilities. The insurer indicated that it would report
                   its pricing and benefit information in the next Plan Finder data collection
                   period. For the individual market, CMS did not conduct targeted followup
                   with any insurers that did not submit pricing and benefit information for
                   the January 2012 display period.

                   CMS has not required insurers to certify to the completeness of
                   the data they submit to the Plan Finder
                   Each insurer’s CEO or CFO must certify to the completeness and accuracy
                   of all data submitted to HHS for display on the Plan Finder. 25 However,
                   CMS has not required CEOs or CFOs to certify to the completeness of the
                   data submitted since the launch of the Plan Finder in July 2010. For all
                   Plan Finder data collection periods from July 2010 through January 2012,
                   insurers were required to certify only to the accuracy of the data submitted
                   as a condition of displaying the data on the Web site. 26
                   According to CMS, its decision not to require insurers to certify to data
                   completeness stems from the specification that insurers must submit
                   information on—at a minimum—all plans that are open for enrollment and
                   represent 1 percent or more of the insurer’s total enrollment within a ZIP
                   Code. According to CMS, most private health insurers do not track
                   enrollment at the plan level and therefore feel they are unable to certify
                   with certainty that they have submitted all of the plans that represent
                   1 percent or more of their total enrollment in a given ZIP Code.




                   25
                     45 CFR § 159.120(g).
                   26
                     HHS, Revised Language for CEO/CFO Attestation of CMP [Content Management
                   Portal] Data, September 22, 2010. Accessed at
                   http://cciio.cms.gov/resources/files/notice_revised.pdf on November 18, 2011.

Oversight of Private Health Insurance Submissions to the HealthCare.gov Plan Finder (OEI-03-11-00560)   9
                   CMS has not been able to identify the entire population of
                   insurers that are required to report basic health insurance
                   information to the Plan Finder
                   CMS has not been able to identify the entire population of private insurers
                   subject to the reporting requirement and therefore cannot oversee insurers’
                   compliance with the requirement to report basic health insurance company
                   and product information to HHS. For the November 2011 and January
                   2012 Plan Finder updates, CMS did not have a mandatory standard process
                   to identify the insurers that may be required to report basic health insurance
                   data to the Plan Finder.
                   According to CMS, there is no existing reference that it can use to identify
                   the total population of insurers required to report to the Plan Finder. In
                   addition, ambiguity in the insurance market and across States surrounding
                   the definition of a health insurance product makes it difficult for CMS to
                   construct such a reference. However, CMS has made prior attempts to
                   identify insurers subject to Plan Finder reporting requirements using data
                   collected by organizations such as the National Association of Insurance
                   Commissioners, America’s Health Insurance Plans, and the Blue Cross and
                   Blue Shield Association.
                   CMS expects that the introduction of other Federal efforts to collect private
                   health insurance information—including data collections for reviews of
                   insurance rate increases, medical loss ratios, Health Plan Identifiers, and
                   the Affordable Insurance Exchanges—may improve CMS’s ability to
                   identify the population of health insurers across the Nation. 27

                   Although CMS implemented numerous measures to
                   oversee data accuracy, the data displayed on the Plan
                   Finder contained some inconsistencies
                   During the data collection periods for the November 2011 and
                   January 2012 Plan Finder updates, CMS incorporated data quality checks
                   into the data-reporting process for private insurers. CMS held insurers
                   accountable for not resolving identified data quality problems by
                   suppressing their health insurance product and plan information from
                   display on the Plan Finder. Despite these oversight efforts, the data
                   displayed on the Plan Finder for our sample of 192 products and plans


                   27
                     A medical loss ratio is the percentage of insurance premiums that an insurer spends on
                   health care services and activities to improve health care quality. The ACA generally
                   requires that insurers spend 80 percent or 85 percent of insurance premiums on health care
                   services and quality improvement. HHS, Health Insurance Basics: Your Insurance
                   Company & Costs of Coverage. Accessed at http://companyprofiles.healthcare.gov/ on
                   March 21, 2013.

Oversight of Private Health Insurance Submissions to the HealthCare.gov Plan Finder (OEI-03-11-00560)     10
                   contained aberrant or inconsistent values that may be confusing or
                   misleading to consumers. 28

                   CMS employed multiple strategies to monitor data accuracy
                   and held insurers accountable by suppressing data from the
                   Plan Finder display
                   To oversee data accuracy during the review period, CMS:
                   •    conducted training sessions, held weekly user group calls, and made
                        staff available to help insurers understand how to submit accurate data;
                   •    embedded quality checks into the data entry templates that insurers
                        used to submit their data;
                   •    applied to all submitted data templates an automated system validation
                        process that conducted quality checks and checked that each insurer
                        submitted all necessary data;
                   •    required that insurers review and verify the accuracy of submitted
                        information; 29
                   •    conducted post-submission quality checks of four data fields to
                        determine whether the data values appeared as expected;
                   •    tested the Web site links for the brochures, drug formularies, and
                        provider networks submitted by insurers to determine whether the links
                        were functional, direct, and accurate;
                   •    maintained communication channels through the Web site, email, and
                        telephone through which consumers, insurers, and State insurance
                        regulators could inform CMS of potential data errors on the Plan
                        Finder; and
                   •    made the review of insurers’ product information available to States’
                        Departments of Insurance through an online data system.
                   During the review period, CMS suppressed submitted private health
                   insurance data from the Plan Finder display for the following reasons:
                   •    One insurer did not pass the automated system validations applied to
                        submitted data templates. This insurer’s data did not progress through
                        the data submission process and therefore were suppressed from the
                        Plan Finder display.

                   28
                      The sample of 192 products and plans was selected from source data files provided by
                   CMS. As described on page 5 of the methodology, the files contained detailed pricing and
                   benefit information for 855 insurers displayed on the Plan Finder during our review period
                   (545 small group market insurers and 310 individual market insurers).
                   29
                      If the insurer identified errors in the submitted data, CMS instructed the insurer to
                   resubmit and reverify the data.

Oversight of Private Health Insurance Submissions to the HealthCare.gov Plan Finder (OEI-03-11-00560)     11
                   •    CMS suppressed 41 insurers’ data from the Plan Finder display because
                        the insurers did not verify the accuracy of submitted data. Of these
                        insurers, 40 operated in the small group market.
                   •    CMS did not display at least 1 link for each of 108 insurers that failed
                        testing on the Plan Finder Web site, but posted a note stating that
                        insufficient link information was provided.
                   •    CMS received two reports, both initiated by State regulators, about
                        potential errors in the small group market data displayed on the Plan
                        Finder. One of these reports led to CMS’s suppression of one insurer’s
                        data from the Plan Finder display.
                   Despite CMS’s efforts to oversee data accuracy,
                   inconsistencies appeared in the Plan Finder displays reviewed
                   The Plan Finder included aberrant and inconsistent information that may
                   confuse consumers and undermine the Plan Finder’s utility as a consumer
                   education tool. In the sample of products and plans, aberrant or
                   inconsistent data values were associated with 3 data fields on the Plan
                   Finder displays for the small group market and with 13 data fields on the
                   displays for the individual market. One or more of these inconsistencies
                   were reflected on the Plan Finder displays for 127, or two-thirds, of the
                   192 products and plans reviewed.
                   •    For 89 individual plans, insurers reported to CMS that limitations and
                        exceptions may apply to at least 1 of 9 benefits that are displayed for
                        each individual market plan on the Plan Finder. 30 However, for these
                        89 plans, the corresponding Plan Finder displays indicated that 1 or
                        more of these 9 benefits were “Included Benefits” with no limitations
                        or exceptions. 31 This systematic inconsistency between the data that
                        insurers submitted to CMS and the data actually displayed on the Plan
                        Finder can be misleading to consumers. For example, a consumer
                        viewing the Plan Finder display for one of these plans may think that
                        the plan fully covers home health care services when the data that the
                        insurer submitted to CMS indicate that this benefit may be restricted in
                        some way.
                   •    For 36 small group products and 17 individual plans, the names of the
                        products and plans that appeared on the Plan Finder display did not


                   30
                      The data fields for the nine benefits were: Dental Checkup for Children, Durable
                   Medical Equipment, Eyeglasses for Children, Habilitation, Home Health Care, Hospice,
                   Inpatient Rehabilitation, Outpatient Rehabilitation, and Routine Eye Care for Children.
                   31
                      Each of these benefits is listed on the Plan Finder display in one of four mutually
                   exclusive coverage categories: “Included Benefits,” “Excluded Benefits,” “Limited
                   Benefits,” or “Benefits Available for Purchase at Additional Cost.”

Oversight of Private Health Insurance Submissions to the HealthCare.gov Plan Finder (OEI-03-11-00560)    12
                        match the names on the insurers’ brochures that were linked to the
                        display. 32 For some small group products, the entire product name on
                        the Plan Finder display did not appear in the brochure. If consumers
                        cannot identify a product or plan in the insurer’s brochure on the basis
                        of the name displayed on the Plan Finder, they may be confused as to
                        whether the product or plan is actually offered by the insurer.
                   •    Seven individual plans had a null value (either “$0.00” or “No
                        Maximum”) displayed in the data field for In-Network Out-of-Pocket
                        Limit, but had specific elements listed as contributing to the
                        out-of-pocket limit in the data field for In-Network Out-of-Pocket
                        Limit Elements. 33 It is unclear why these elements would be listed for a
                        plan without an out-of-pocket limit.
                   •    For four individual plans, all of their drug coverage data fields (Generic
                        Drugs, Preferred Brand Drugs, and Specialty Drugs) on the Plan Finder
                        display indicated that drugs were “Not Covered” by the plan.
                        However, these plans had drug formulary Web site links posted on their
                        displays. It is confusing when a plan that appears to lack drug coverage
                        has a link to a list of covered drugs.
                   •    Three products and plans had extremely low values ($2,250, $2,500,
                        $4,000) displayed in their Annual Maximum Benefit data field. An
                        Annual Maximum Benefit of $4,000 conveys that the plan pays only
                        $4,000 for all in-network health care services provided to an enrollee in
                        a year. If this value is inaccurate, it may be misleading to consumers.
                        When other products and plans had an Annual Maximum Benefit listed,
                        the data values ranged from $25,000 to $7,500,000.
                   •    Two small group products in our sample had extremely low values
                        ($1.50, $2, $3, $4, $5) displayed in the data field for Annual
                        Out-of-Pocket Maximum Options. A value of $5 conveys the unlikely
                        scenario that the consumer will pay a maximum amount of $5 for all
                        covered in-network health services during the year. When other small
                        group products in our sample had values listed in this data field, the
                        values ranged from $200 to $25,000.



                   32
                      We considered a product or plan name on a brochure as matching the name on the Plan
                   Finder display if parts of the displayed name appeared anywhere in the brochure. For
                   example, if part of the displayed name was “1500/30” and cost-sharing information in the
                   brochure included a $1,500 deductible with 30-percent coinsurance, then we considered
                   the names to match.
                   33
                      The In-Network Out-of-Pocket Limit is the maximum amount a patient pays for
                   in-network covered health services in a year. Generally, this includes the deductible,
                   coinsurance, and copayments. The elements included in the out-of-pocket limit vary from
                   plan to plan.

Oversight of Private Health Insurance Submissions to the HealthCare.gov Plan Finder (OEI-03-11-00560)   13
                   Not all of the products and plans displayed on the
                   Plan Finder were available for sale or were recognized
                   by insurers’ representatives
                   For 26 of 192 products and plans (14 percent), either the insurers’ customer
                   service representatives stated that the health insurance products or plans
                   were not available for sale (14 products or plans) or the representatives
                   could not identify the products on the basis of the name displayed on the
                   Plan Finder (12 products).
                   Insurers’ representatives stated that 14 small group products or individual
                   plans were not available for sale. Of these, 13 were not available at the
                   time of the calls or were not offered in the States or counties that we
                   referred to during the calls. For one individual plan, the representative
                   indicated that the plan was available only to consumers withdrawing from
                   group coverage and therefore was not available to all individuals
                   purchasing private insurance. Insurers’ representatives could not identify
                   an additional 12 small group products on the basis of the product names
                   that we provided from the Plan Finder display. For example, one
                   representative said, “There are 10 different [products]—none of them say
                   ‘Consumer Choice’ on them.” Another representative indicated that the
                   product name we gave her was for a “portfolio” and there were multiple
                   products within the portfolio that each included a set of plan options. She
                   said that she could not answer our questions unless we chose a specific
                   product from the portfolio.
                   We could not compare the data displayed on the Plan Finder to the
                   information provided by insurers’ representatives for the 26 products and
                   plans that were not available or could not be identified. Therefore, our data
                   comparisons were limited to the remaining 166 products and plans that
                   were available for sale and recognized by representatives.

                   Eighty-one percent of product and plan data displayed
                   on the Plan Finder matched information provided by
                   insurers’ representatives
                   On average, products and plans in our sample had 81 percent of the data
                   displayed on the Plan Finder match the information provided by insurers’
                   representatives. We compared information displayed on the Plan Finder to
                   information provided by insurers’ representatives for 18 data values for
                   individual plans and 30 data values for small group products. 34 To


                   34
                     In some cases, insurers’ customer service representatives did not know the answer to or did
                   not answer one or more of the questions asked about products and plans in our review.
                   Specifically, insurers’ representatives did not know the answer to 5 percent of questions and
                   did not answer 1 percent of questions.

Oversight of Private Health Insurance Submissions to the HealthCare.gov Plan Finder (OEI-03-11-00560)          14
                       illustrate, if 14 of 18 individual plan data values matched the plan
                       information provided by insurers’ representatives, we calculated a
                       78-percent consistency rate for the plan. 35 The rates of matching data
                       ranged from a 45-percent consistency rate for one small group product to a
                       100-percent consistency rate for seven products and plans. Overall, small
                       group products had lower rates of consistency than did individual market
                       plans. Table 2 specifies the distribution of consistency rates for the
                       products and plans in our sample.

Table 2: Consistency of HealthCare.gov Plan Finder Display With Information Provided by
Private Insurers’ Representatives
                                       Number (%) of         Number (%) of          Number (%) of           Number (%) of            Average
                                        Products and          Products and           Products and            Products and         Consistency
 Health Insurance Market                 Plans With a          Plans With a           Plans With a            Plans With a           Rate Per
                                   Consistency Rate            Consistency        Consistency Rate        Consistency Rate        Product and
                                   of Less Than 75%         Rate of 75–89%              of 90–99%                  of 100%               Plan
Individual Market,
January 2012 Update                            9 (10%)              48 (56%)                23 (27%)                   6 (7%)               86%
(86 plans)
 Small Group Market,
 November 2011 Update                         38 (48%)              29 (36%)                12 (15%)                   1 (1%)               76%
 (80 products)
  Totals
                                              47 (28%)              77 (46%)                35 (21%)                   7 (4%)               81%
  (166 products and plans)
Source: OIG analysis comparing consumer information provided on calls to insurers’ telephone customer service representatives to the data
displayed on the HealthCare.gov Plan Finder Web site, 2012.


                       For 47 of 166 products and plans (28 percent), less than three-quarters of
                       their displayed data matched the information provided by insurers’
                       customer service representatives. Small group market products accounted
                       for 38 of the 47. It is important to note that these small group market data
                       reflect CMS’s first collection of detailed pricing and benefit information
                       from small group market insurers. In contrast, individual market insurers
                       have been reporting detailed plan data to the Plan Finder since September
                       2010.
                       For certain fields on the Plan Finder display, data values were
                       less likely to match information provided by insurers’
                       representatives
                       Across small group products and individual plans, certain benefit data
                       fields displayed on the Plan Finder were less consistent with information
                       provided by insurers’ representatives. For example, only 39 percent of
                       individual plans had data in the Plan Finder’s data field for Home Health
                       Care that matched the home health care benefit information provided by


                       35
                         We did not include missing data values in the denominator when calculating the consistency
                       rate. For example, if the representative did not know the answer to 1 of the 18 questions
                       regarding an individual plan and 14 of the remaining 17 data values matched, we calculated an
                       82 percent (14/17) consistency rate.

Oversight of Private Health Insurance Submissions to the HealthCare.gov Plan Finder (OEI-03-11-00560)                                 15
                   insurers’ representatives. This low consistency rate may be attributed to
                   the systematic inconsistency described earlier, i.e., insurers reported
                   information to CMS about limitations and exceptions for home health care
                   coverage that was not reflected in the health insurance plan data displayed
                   on the Plan Finder.
                   For six of the seven benefit data fields that displayed small group products’
                   range of cost-sharing options, less than 75 percent of products had Plan
                   Finder data values that matched the information provided by insurers’
                   representatives. 36 Insurers were instructed to summarize information about
                   their products to enter it into the Plan Finder templates. Lower consistency
                   rates for the “range of cost-sharing options” data fields on the Plan Finder
                   display may reflect challenges that insurers faced when summarizing
                   pricing and benefit information as a set of product options. Alternatively,
                   the lower consistency rates for these data fields may reflect challenges that
                   insurers’ representatives faced when recalling and presenting the minimum
                   and maximum values of a range of product options.




                   36
                     These six data fields were: Available In-Network Deductibles, Available
                   Out-of-Network Deductibles, Annual Out-of-Pocket Maximum Options, Range of
                   In-Network Copay Options, Range of In-Network Coinsurance Options, and Range of
                   Out-of-Network Coinsurance Options.

Oversight of Private Health Insurance Submissions to the HealthCare.gov Plan Finder (OEI-03-11-00560)   16
                   CONCLUSION AND RECOMMENDATIONS
                   Private insurers offering health insurance in the individual and small group
                   markets must submit data to populate the HealthCare.gov Plan Finder. The
                   data collection conducted by CMS/CCIIO to populate the Plan Finder
                   represents the first national attempt to identify these insurers and the
                   products and plans they offer. For American consumers to obtain the
                   maximum benefit from the Plan Finder, the private health insurance data
                   displayed there must be complete and accurate.
                   In November 2011 and January 2012, CMS did not ensure that private
                   health insurers reported all required data to HHS. However, CMS
                   implemented numerous measures to ensure the accuracy of reported data
                   and suppressed data from the Plan Finder when quality checks identified
                   problems. Despite these efforts, our review of the data displayed on the Plan
                   Finder for 192 selected products and plans found that some aberrant and
                   inconsistent data values appeared on the Web site. These inconsistencies
                   may be confusing or misleading to consumers using the Plan Finder to seek
                   information about the private health insurance products and plans available
                   to them.
                   Our comparison of data displayed on the Plan Finder to data provided by
                   insurers’ representatives was designed to identify inconsistencies between
                   two sources of health insurance information. This comparison revealed that
                   some health insurance products and plans displayed on the Plan Finder were
                   not available for sale or were not recognized by insurers’ representatives.
                   When products and plans were available and were recognized, an average of
                   81 percent of the data displayed on the Plan Finder matched the information
                   provided by insurers’ representatives. For a smaller number of products and
                   plans in our purposive sample, less than three-quarters of their Plan Finder
                   data matched the information provided by insurers’ representatives. Small
                   group market products accounted for most of these inconsistencies. The
                   data reviewed from the small group market represent CMS’s inaugural
                   collection of detailed pricing and benefit information for this insurance
                   market.
                   Our findings indicate that additional efforts are needed to oversee private
                   health insurers’ compliance with reporting requirements for the Plan Finder
                   and to ensure that the data displayed on the Plan Finder are accurate.




Oversight of Private Health Insurance Submissions to the HealthCare.gov Plan Finder (OEI-03-11-00560)   17
                   Therefore, we recommend that CMS:
                   Establish and Implement Procedures To Identify and Pursue
                   Private Insurers That Do Not Submit Required Data to the Plan
                   Finder
                   CMS should establish and implement a standard process to identify private
                   health insurers that are required to report basic health insurance company
                   and product data to HHS. After doing so, CMS should systematically
                   contact insurers that have not submitted basic health insurance information
                   for display on the Plan Finder. CMS has taken initial steps toward this end
                   by seeking a contractor to evaluate Plan Finder data with a specific goal of
                   determining whether the insurers that have reported data to the Plan Finder
                   reflect the entirety of insurers subject to the requirements. In addition, CMS
                   should establish and implement procedures to conduct targeted followup
                   with private health insurers that did not submit pricing and benefit
                   information during each data collection period. If these steps do not
                   improve compliance, CMS should consider seeking additional authority to
                   impose penalties on insurers that do not submit required data.
                   Ensure That Each Private Insurer’s CEO or CFO Certifies to the
                   Completeness of Data Submitted for the Plan Finder
                   Since July 2010, insurers have been required to certify to the accuracy of the
                   data submitted to the Plan Finder. CMS should implement the requirement
                   in 45 CFR § 159.120(g) that insurers’ CEOs or CFOs certify to the
                   completeness of the submitted data as a condition of displaying the data on
                   the Plan Finder. As part of this, CMS may want to consider revising the
                   current specification of completeness—that insurers must submit
                   information on—at a minimum—all plans that are open for enrollment and
                   represent 1 percent or more of the insurer’s total enrollment within a ZIP
                   Code. One option is to devise a specification of completeness that aligns
                   with how private insurers track enrollment.
                   Design and Implement Additional Strategies To Ensure Plan
                   Finder Data Accuracy
                   CMS incorporates insurer training and data quality checks into the Plan
                   Finder data submission process to prevent and correct data errors. However,
                   our review indicates that CMS should perform additional data quality
                   checks to prevent aberrant or inconsistent values from being displayed on
                   the Plan Finder that may be confusing or misleading to consumers. In
                   designing additional strategies, CMS should begin by addressing the
                   inconsistencies described in this report. For example, CMS should check
                   that data submitted by insurers on limitations or exceptions to plan benefits
                   are reflected on the Plan Finder. CMS may consider incorporating specific
                   instructions in its data entry guidance to private insurers about submitting
                   product and plan names for the Plan Finder that appear on brochures and are

Oversight of Private Health Insurance Submissions to the HealthCare.gov Plan Finder (OEI-03-11-00560)   18
                   recognizable to insurers’ customer service representatives. CMS could also
                   instruct insurers to submit data on the range of cost-sharing options for
                   small group products that are the same as those outlined in materials used
                   by their customer service representatives to sell insurance to small
                   employers.
                   Validate That Products and Plans Submitted to the Plan Finder
                   Are Available for Sale
                   Our review indicates that not all private health insurance products and plans
                   that appeared on the Plan Finder were available for sale. CMS is awarding
                   a contract for a Plan Finder data evaluation. One of the goals of this
                   contract is to use data from outside sources to produce a report on insurers’
                   accuracy of reporting. At a minimum, CMS should focus the contractor’s
                   efforts on using data from outside sources to ensure that products and plans
                   that are submitted to the Plan Finder are available for sale.




Oversight of Private Health Insurance Submissions to the HealthCare.gov Plan Finder (OEI-03-11-00560)   19
                   AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
                   RESPONSE
                   CMS generally concurred with all of OIG’s recommendations and has
                   begun to implement changes to address them. CMS stated that it believes
                   that regulations and standards proposed for 2014 will help simplify the
                   reporting process for health insurers and increase the reliability of Plan
                   Finder information.
                   CMS concurred with our first recommendation, that it establish and
                   implement procedures to identify and pursue private insurers that do not
                   submit required data to the Plan Finder. CMS stated that it had identified
                   three lists of Health Insurance Issuers that may need to report additional
                   data under the HealthCare.gov regulation and that it would begin sending
                   targeted memos and conducting followup with these issuers in January
                   2013. In addition, CMS noted that it is compiling lists of issuers required
                   to report to the Plan Finder from other sources and will begin to contact
                   these issuers in the first quarter of 2013.
                   CMS concurred with our second recommendation, that it ensure that each
                   private insurer’s CEO or CFO certifies to the completeness of data
                   submitted to the Plan Finder. CMS stated that it is working to integrate
                   Corporate Officer attestations associated with various ACA reporting
                   requirements. CMS noted that it expects to implement the fuller attestation
                   requirement in the second quarter of 2013.
                   CMS concurred with our third recommendation, that it design and
                   implement additional strategies to ensure Plan Finder data accuracy. CMS
                   stated that it hired a contractor in 2012 to review the quality of Plan Finder
                   data and provide quarterly reports that will enable CMS to contact issuers
                   regarding aberrant data. In addition, CMS noted that it conducts weekly
                   calls to address questions from issuers on reporting data accurately. CMS
                   stated that it believes that changes to its data collection to reflect the
                   Summary of Benefits and Coverage (a standard document that insurers are
                   required to provide to consumers) will improve communication and
                   presentation of information on the Plan Finder.
                   CMS concurred with our fourth recommendation, with caveats, that it
                   validate that products and plans submitted to the Plan Finder are available
                   for sale. CMS stated that its data quality contractor will evaluate whether
                   the information reported to the Plan Finder is accurate. In addition, CMS
                   noted that it will encourage the display of “marketing names” for health
                   insurance plans and products to decrease confusion as consumers
                   communicate with sales representatives.
                   The full text of CMS's comments is provided in Appendix B.

Oversight of Private Health Insurance Submissions to the HealthCare.gov Plan Finder (OEI-03-11-00560)   20
                   APPENDIX A
                   Plan Finder Data Fields Included in Office of Inspector General
                   Review of Information Provided by Insurers’ Representatives
                   We collected information from insurers’ customer service representatives
                   for 18 of the 55 data fields for individual plans and 23 of the 63 data fields
                   for small group products displayed on the Plan Finder. We included seven
                   small group data fields that each displayed a range of cost-sharing options.
                   For these data fields, we collected information on the minimum and
                   maximum of the range and considered the minimum and maximum as two
                   distinct data values. Therefore, for the 23 selected Plan Finder data fields
                   for small group products, we collected 30 data values from representatives.
                   Table A-1 outlines the Plan Finder data fields included in our review.
                   Table A-1: Plan Finder Data Fields Included in Office of Inspector General
                   (OIG) Review of Information Provided by Insurers’ Representatives
                     Name of Data Field Reviewed,                              Name of Data Field Reviewed,
                     Small Group Market,                                       Individual Market,
                     November 2011 Update                                      January 2012 Update
                     Product Name                                              Plan Name
                     Available In-Network Deductibles1                         Deductible (Individual)
                     Available Out-of-Network Deductibles1                     In-Network Out-of-Pocket Limit (Individual)
                                                                  1
                     Annual Out-of-Pocket Maximum Options                      In-Network Out-of-Pocket Limit Elements
                     Health Savings Account Eligibility                        Health Savings Account Eligibility
                     Annual In-Network Maximum Benefit                         Annual Maximum Benefit (Individual)
                     Doctor Choice                                             Doctor Choice
                     Enrollment of Same-Sex Partners                           Primary Care Physician Office Visit
                     Enrollment of Domestic Partners                           Specialty Physician Office Visit
                     Range of In-Network Copay Options1                        Inpatient Hospital Services
                     Range of Out-of-Network Copay Options1                    Emergency Room Services
                                                                      1
                     Range of In-Network Coinsurance Options                   Generic Drugs
                     Range of Out-of-Network Coinsurance Options1              Mental Health Coverage (Outpatient)
                     Specialist Visit                                          Prenatal and Postnatal Care
                     Emergency Room                                            Home Health Care
                     Generic Drugs                                             Hearing Aid
                     Mental [Health,] Inpatient                                Long Term Care
                     Prenatal and Postnatal Care                               Chiropractic
                     Home Health Care
                     Hearing Aid
                     Long Term Care
                     Acupuncture
                     Bariatric Surgery
                     Source: OIG telephone calls to insurers’ customer service representatives based on data displayed on the
                     HealthCare.gov Plan Finder Web site, 2012.
                     1
                      For this small group product data field, we collected data on the minimum and maximum of the range and
                     considered the minimum and maximum as two distinct data values in our analysis.




Oversight of Private Health Insurance Submissions to the HealthCare.gov Plan Finder (OEI-03-11-00560)                           21
                     APPENDIX 8
                     Agency Comments



  ("'Jf-	      DEPARTMENT OF HEALTH & HUMAN SERVICES                                  Centers tor Medicare & Medicaid Services


                                                                                      Administrator
                                                                                      Washington, DC 20201




             DATE:            JAN 1    ~   2013

             TO: 	          Daniel R. Levinson 

                            Inspector General 


              FROM: 	        Marilyn Tavenner 

                                                   /S/
                             Acting Administrator 


              SUBJECT: 	     Otlice of Inspector General (OIG) Draft Report: "Oversight of Pri vate Health
                             Insurance Submissions to the Healthcare.gov Plan Finder"--(OEI-03-11-00560)


              The Centers for Medicare and Medicaid Services (CMS) would like to thank OIG for the
              opportunity to review and comment on the OIG Draft Report referenced above.

              The evaluation report issued by OIG identifies several areas where CMS can improve the
              accuracy and completeness ofour data collection to support HeahhCare.gov . CMS generally
              concurs with each of the OIG recommendations and has begun implementation of changes that
              we believe will meet the recommendations. CMS believes that the overall assessment overstates
              the problems with the website by underappreciating the degree to which the current insurance
              market operdtes in non-standard ways. Current regulation allows issuers to assign a single name
              to a complex set of options which make it difficult to confirm specifics on the website. CMS
              does reach out to issuers when errors are reported to us, and these are often the result of
              misinformation or misidentification by customer service representatives rather than errors in
              reporting. We believe that regulations and standards currently under review and proposed for
              2014 will help simplify this process, and increase the reliability of information .


              OIG Recommendation
              The 010 recommends CMS establish and implement procedures to identify and pursue private
              insurers who do not submit required data for the Plan Finder.




Oversight of Private Health Insurance Submissions to the HealthCare.gov Plan Finder (OEI-03-11-00560)                            22
Oversight of Private Health Insurance Submissions to the HealthCare.gov Plan Finder (OEI-03-11-00560)   23
Oversight of Private Health Insurance Submissions to the HealthCare.gov Plan Finder (OEI-03-11-00560)   24
                   ACKNOWLEDGMENTS
                   This report was prepared under the direction of Robert A. Vito, Regional
                   Inspector General for Evaluation and Inspections in the Philadelphia
                   regional office, and Linda M. Ragone, Deputy Regional Inspector General.
                   Amy Sernyak served as the team leader for this study. Other Office of
                   Evaluation and Inspections staff from the Philadelphia regional office who
                   conducted this study include Joanna Bisgaier and Conswelia McCourt.
                   Central office staff who provided support include Heather Barton,
                   Althea Hosein, Meghan Kearns, and Christine Moritz.




Oversight of Private Health Insurance Submissions to the HealthCare.gov Plan Finder (OEI-03-11-00560)   25
                Office of Inspector General
                                 http://oig.hhs.gov

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services
(HHS) programs, as well as the health and welfare of beneficiaries served by those
programs. This statutory mission is carried out through a nationwide network of audits,
investigations, and inspections conducted by the following operating components:

Office of Audit Services
The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits
examine the performance of HHS programs and/or its grantees and contractors in carrying
out their respective responsibilities and are intended to provide independent assessments of
HHS programs and operations. These assessments help reduce waste, abuse, and
mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide
HHS, Congress, and the public with timely, useful, and reliable information on significant
issues. These evaluations focus on preventing fraud, waste, or abuse and promoting
economy, efficiency, and effectiveness of departmental programs. To promote impact, OEI
reports also present practical recommendations for improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations
of fraud and misconduct related to HHS programs, operations, and beneficiaries. With
investigators working in all 50 States and the District of Columbia, OI utilizes its resources
by actively coordinating with the Department of Justice and other Federal, State, and local
law enforcement authorities. The investigative efforts of OI often lead to criminal
convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to
OIG, rendering advice and opinions on HHS programs and operations and providing all
legal support for OIG’s internal operations. OCIG represents OIG in all civil and
administrative fraud and abuse cases involving HHS programs, including False Claims Act,
program exclusion, and civil monetary penalty cases. In connection with these cases, OCIG
also negotiates and monitors corporate integrity agreements. OCIG renders advisory
opinions, issues compliance program guidance, publishes fraud alerts, and provides other
guidance to the health care industry concerning the anti-kickback statute and other OIG
enforcement authorities.
